  Pension Benefit Guaranty Corporation
       Office of Inspector General
             Evaluation Report




Statutory Review of PBGC's Compliance with the
             Implementation of the
       Improper Payments Information Act




               March 15, 2012
                                   EVAL-2012-8/PA-11-85
                               Pension Benefit Guaranty Corporation
                                                                 Office of Inspector General
                                                1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                                          March 15,2012



TO:              Joshua Gotbaum
                 Director
                 Pension Benefit Guaranty Corporation

FROM:            Joseph A. Marchowsky        ~     (L       ~
                 Assistant Inspector General for Audit

SUBJECT:         Statutory Review ofPBGC's Compliance with the Implementation of the
                 Improper Payments Information Act
                 Report No. 2012-08/ PA-1l-85


As required by the Improper Payments InfOlmation Act (IPIA) (P.L. 107-300), as amended by
the Improper Payments Elimination and Recovery Act (IPERA) (P.L. 111-204), the Pension
Benefit Guaranty Corporation's (PBGC) Office ofInspector General (OIG) reviewed PBGC's
compliance with IPIA requirements. We determined that PBGC has instituted a systematic
method to review its programs and activities for improper payments and has generally complied
with IPIA implementing requirements established in OMB Circular A-123 Appendix C. 1 PBGC
repOlis that the Corporation requested and received OMB approval to develop an aItemative
method of measuring documentation issues. Thus, PBGC did not include documentation enors
in its published improper payment estimates.

While we concluded that PBGC was in general compliance with IPIA requirements, we
identified a minor inconsistency in that PBGC repOlied the net amount of estimated improper
payments rather than the gross amount, as required by OMB guidance.

The objective of our evaluation was to assess PBGC's compliance with the requirements of the
IPIA, as amended. This evaluation was performed in accordance with standards established by
the President's Council on Integrity and Efficiency Quality Standards for Inspections issued
January 2005. These standards require that we plan and perform the evaluation to obtain
sufficient, competent, and relevant evidence to provide a reasonable basis for our conclusions
based on our evaluation objectives. We believe that the evidence obtained provides a reasonable
basis for our conclusions based on our evaluation objectives.




10MB Circular A-123, Management's Responsibility for Internal Controls, Appendix C, April 20 11.
Background

On July 22,2010, the President signed IPERA2 into law. IPERA amended the Improper
Payments Information Act? Under IPERA, the head of each agency is required to periodically
review and identify all programs and activities that may be susceptible to significant improper
payments, based on guidance provided by the Director of OMB. Significant improper payments
are defined as improper payments that exceed the lesser of $1 00 million or 2.5 percent of
program outlays plus $10 million. OMB issued government-wide guidance on the
implementation of IPERA in April 2011. 4 This guidance establishes implementation guidance
for agency management and for inspectors general.

For each program and activity identified, the agency is required to produce a statistically valid
estimate or an estimate that is otherwise approved by OMB, of the improper payments and
include such estimates in the accompanying materials to the annual financial statements of the
agency. 5 In certain circumstances, the agency is also required to prepare a report on actions it
took to reduce improper payments for programs or activities with significant improper
payments. 6 The report must specify, among other things (1) a description of the causes of
improper payments, actions planned or taken to conect those causes, and the planned or actual
completion date of the actions taken to address those causes and (2) program- and activity-
specific targets for reducing improper payments that have been approved by the Director of
OMB.7

To its credit, PBGC dedicated significant staffresources to the review and analysis of improper
payments. The Corporation also expended significant financial resources to hire a well-known
consulting firm to assist PBGC in its IPIA assessment. PBGC senior staff were directly involved
in the assessing the payments streams at risk for significant improper payments and in the
determination of error definitions. Consistent with OMB guidance, the three payment streams
identified for review - benefit payments, multi-employer financial assistance, and contract
payments -- represent the largest volume of payments made by the Corporation, exclusive of
payments made to federal employees (not required by OMB).

As pati of its review, PBGC noted documentation issues in the benefit payment area. PBGC's
analysis of these issues showed that a significant component is related to legacy data issues,
errors that were considered to be self-conecting, and enol'S that were the result of internal
agency policy. For these reasons, PBGC plans to refine its testing approach with respect to
benefit payment documentation issues. For FY 2011, PBGC reported documentation issues
without quantification; PBGC reports that OMB officials concurred in this decision.




2
  Pub. L. No. 111-204, 124 Stat. 2224.
3 Pub. L. No. 107-300, 116 Stat. 2350.
40MB Circular A-123, Management's Responsibility for Internal Controls, Appendix C, April 2011.
5 Pub. L. No. 111-204 § 2(b), 124 Stat. 2224, 2225.
6 Pub. L. No 111-204 § 2(c), 124 Stat. 2224, 2225-2226.
7 Pub. L. No. 111-204 § 2(c)(l) and (4), 124 Stat. 2224, 2225-2226.


OIG RepOli Eva12012-8 / PA-II-85
                                                                                                    2
Review Results

OMB guidance specifies that each agency's Inspector General should review agency improper
payment reporting in the agency's annual performance and accountability report or annual
financial report and accompanying materials, to determine whether the agency complied with
IPIA. We determined that PBGC had generally met the compliance requirements specified by
OMB. Appendix B summarizes our assessment of PBGC compliance with the various IPIA
requirements.

Although we concluded that PBGC had generally met the specific compliance requirements
established by OMB, we noted that PBGC's methodology for estimating improper payments had
certain analytical flaws. Further, our review ofPBGC's Report No. 2011-4010 "Results ofFY
2011 Improper Payment Assessment" issued November 10,2011, identified elTors and
inaccuracies that further reduced the reliability ofPBGC's estimates (although the differences
were not significant).

Our observations of issues that should be addressed by PBGC in future efforts include:

   •   In its Annual Report, PBGC incorrectly reported the net of overpayments and
       underpayments for improper benefit payments and for improper payments to contractors.
       For benefit payments to participants in final pay status, PBGC reported the estimated
       improper payment to be $8,297,039. A more COlTect presentation, consistent with OMB
       guidance, would have been to report estimated improper benefit overpayments of
       $9,829,277 and underpayment of$1,532,238, for a gross total of$11,361,515 in
       improper benefit payments. For payments to contractors, PBGC reported estimated
       improper payments in the improper amount totaling $2,799,115 instead of reporting
       overpayments of$2,821,898 and underpayments of$22,783.

       While OMB guidance does not forbid reporting net amounts, the guidance does require
       reporting the gross estimate, numbers that PBGC did not include in its annual report.
       According to PBGC staff, this occUlTed because they considered the net to be more
       relevant from a collection and recovery perspective and since, in accordance with OMB
       instructions, PBGC had marked "N!A" for the gross improper payment table. PBGC
       staff believed it was permissible to report net numbers.


   •   PBGC and its contractor made errors in their analysis of certain payments. For example,
       PBGC sampled 596 benefit payments and concluded that nine of the payments were
       inaccurate. However, when we reviewed the nine benefit payments where the
       Corporation had determined the amount paid to be improper, we identified elTors in
       PBGC's conclusions about three of the nine payments. For two of the payments, PBGC
       and its contractor had made small math errors. Further, for these two payments, PBGC
       and its contractor had incorrectly applied plan provisions. For the third payment, PBGC
       and its contractor initially identified an error amount that they subsequently revised.


OIG Report EvaI2012-8! PA-11-85
                                                                                                 3
           However, our review showed that the revised amount was not entered into the statistical
           analysis, with the result that an inconect amount was used in creation of the reported
           estimate.

           The impact of the three enors was not large, changing the statistical point estimate by
           only $46,180. Nevertheless, PBGC and its contractor made mistakes in one-third (3 of 9)
           of the identified improper benefit payments.

       •   In future years, PBGC should attempt to attain improved precision in its statistical sample
           design. While each of the statistical estimates reported in PBGC's Annual Report did
           meet the precision required by OMB, 8 statistical estimates related to documentation
           issues in benefit payments and repOlied in PBGC's internal report were not sufficiently
           precise. This occuned because PBGC and its contractor assumed an overall error rate in
           planning for the statistical sample that was lower than the actual rate determined through
           PBGC's testing.




8   Estimate of the percentage of improper payments, with a 90 percent confidence interval of plus or minus 2.5
    percentage points around the estimate of the percentage of improper payments.


OIG Report Eva12012-8 / PA-11-85
                                                                                                                  4
Scope and Methodology

Our objective was to assess PBGC's compliance with the requirements of the IPIA, as amended.
In addition, we evaluated the Agency's accuracy and completeness of reporting. To accomplish
our objectives, we:

   •   Reviewed applicable federal laws and Office of Management and Budget guidance.
   •   Reviewed PBGC's Improper Payment Assessment documented in Appendix A of the
       Corporation's FY 2011 Annual Report for completeness and compliance with OMB
       requirements.
   •   Interviewed appropriate PBGC and contractor staff.
   •   Assessed the reasonableness of the payment streams PBGC selected for review.
   •   Analyzed documents, calculations, and evidence used to determine the amount of
       improper payments resulting from PBGC operations for correctness.
   •   Assessed PBGC statistical projections for compliance with OMB guidance.
   •   Reviewed a sample of the transactions reviewed by the PBGC contractor.
We performed our review from November 2011 through March 2012 in Washington, D.C. This
evaluation was performed in accordance with standards established by the President's Council on
Integrity and Efficiency Quality Standards for Inspections issued January 2005, and in
accordance with the Office ofInspector General policies and procedures, specifically the OIG
Audit Manual.




OIG Report EvaI2012-8! PA-11-85
                                                                                             5
APPENDIX A - Agency Response




                                              Pension Benefit Guaranty Corporation
            P,otec;tl n gAm.,iu ·.Pen,lonl    1200 K Street, N.W .. Washington . D.C. 20005 -4026


                Office of che DIrector


                                                                                                            MAR 14 2012

                                                                       MEMORANDUM



                            To :                 Joseph A. Marchowsky
                                                 Assistant Inspector General for Audit


                            From :               Josh Gotbau~\)
                                                 Director  cy(
                           Subject:              Response to the Office ofInspector General's (OIG's) Draft Report on
                                                 Management's Fiscal Year 20 II Report on Improper Payments


                           Thank you for the 0ppoltunity to comment on the subject draft report. We are in
                           agreement with the findings and conclusions of your repOlt.

                           FY 20 II marks the first year of repOlting results under the Improper Payments
                           Elimination and Recovery Act of2010. PBGC engaged an international public
                           accounting and consulting firm to provide consulting assistance and testing SUppOlt as
                           patt of that pilot. Based on a review of our outgoing payment streams, we identified and
                           repOlted on three programs that were potentially at risk of significant improper payments,
                           in accordance with Office of Management and Budget (OMB) guidance:

                                   •     Benefit payments to palticipants in "final pay" status for plans trusteed by PBGC;
                                   •     Financial assistance payments to insolvent multiemployer plans; and
                                   •     Payments to contractors for goods and services received.

                           Given that this was a pilot year, we did not specify the gross improper payment rates for the three
                           pay streams. PBGC followed OMB's guidance in this regard. Nevertheless, we reported
                           considerable additional information in keeping with the OMB guidance.

                           Again, thank you for the 0ppOItunity to comment. PBGC will incorporatc the findings of your
                           2011 review, as appropriate, to improve our 20 12 IPERA assessment.




OIG Report Eva12012-8! PA-11-85
                                                                                                                                 6
APPENDIXB




                   OMB ESTABLISHED FACTORS FOR INSPECTOR GENERAL
                           TO REVIEW FOR IPIA COMPLIANCE
                                                               PBGC
    Item             Requirement/Criteria                      Status                       Comment
            Agency has published a performance
            and accountability report (PAR) or
            annual financial report (AFR) for the
            most recent fiscal year and posted that                           Annual Report published
            report and any accompanying materials                             November 14,2011. Report
    1       required by OMB on the agency website              Complied       available on PBGC website.
            Agency has conducted a program
            specific risk assessment for each
            program or activity that conforms to
            Section 3321 of Title U.S.C (if                                   Risk assessment of major
    2       required)                                          Complied       payment streams completed.
            Agency published improper payment
            estimates for all programs and activities
            identified as susceptible to significant
            improper payments under its risk                   Not            Improper payments below the
    3       assessment (if required)                           Required       threshold. 9
            Agency published programmatic
            corrective action plans in the PAR or              Not            Improper payments below the
    4       AFR (if required)                                  Required       threshold.
            Agency published, and has met, annual
            reduction targets for each program
            assessed to be at risk and measured for            Not            Improper payments below the
    5       improper payments                                  Required       threshold.
            Agency reported a gross improper
            payment rate of less than 10 percent for
            each program and activity for which an
            improper payment estimate was
            obtained and published in the PAR or                              Improper Payment rates below
    6       AFR                                                Complied       10% for all payment streams.
                                                                              Annual Performance Report
            Agency repOlied information on its                                Appendix A describes PBGC
    7       efforts to recapture improper payments.            Complied       recapture efforts.



9   Significant improper payments are defined as improper payments that exceed the lesser of $1 00 million or 2.5
     percent of program outlays plus $10 million.

OIG Report Eva12012-8 / PA-11-85
                                                                                                                    7
